Office of Inspector General
      Audit Report


 FEDERAL HIGHWAY ADMINISTRATION’S
   OVERSIGHT OF FEDERAL-AID AND
RECOVERY ACT PROJECTS ADMINISTERED
     BY LOCAL PUBLIC AGENCIES
       NEEDS STRENGTHENING
        Federal Highway Administration
         Report Number: MH-2011-146
          Date Issued: July 15, 2011
           U.S. Department of
                                                               Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Federal Highway Administration’s                                     Date:    July 15, 2011
           Oversight of Federal-aid and Recovery Act
           Projects Administered by Local Public Agencies
           Needs Strengthening
           Report Number MH-2011-146

  From:                                                                              Reply to
           Joseph W. Comé                                                            Attn. of:   JA-40
           Assistant Inspector General for
             Highway and Transit Audits

    To:    Federal Highway Administrator

           Each year states entrust the administration of approximately $8 billion in
           Federal-aid highway program funds to governments in cities and counties–referred
           to as local public agencies (LPA)–for construction of highway infrastructure. The
           American Recovery and Reinvestment Act (ARRA) of 2009 invested an additional
           estimated $8 billion in LPA-led infrastructure projects.1 Along with this
           substantial infrastructure investment, ARRA legislation requires the Federal
           Highway Administration (FHWA) to perform oversight to ensure that ARRA-
           funded projects meet Federal requirements and legislative goals, and are
           adequately protected against fraud, waste, and abuse.

           FHWA considers those states that do not employ comprehensive oversight of
           LPA-administered Federal-aid highway projects as being high risk to the effective
           implementation of ARRA. In 2010, FHWA determined that 9 states had not
           employed a comprehensive level of LPA oversight and had material weaknesses in
           their LPA oversight programs. These weaknesses included a lack of resources to
           perform state oversight of LPAs, LPAs’ inadequate contract administration and
           quality assurance procedures, noncompliance with Federal labor requirements, and
           improper processing of contract changes.



           1
               Pub. L. No. 111-5 (2009). The estimated $8 billion is based on the ARRA funding requirement that apportions
               30 percent of ARRA funds for sub-allocation within each state.
                                                                                                                    2


As part of our ongoing ARRA oversight, we initiated this audit to determine
whether FHWA has taken actions to reduce risks identified with locally
administered highway projects. Specifically, we assessed (1) the extent of LPA
compliance with Federal requirements and (2) the effectiveness of FHWA’s
actions in ensuring that states have adequate LPA oversight programs. To conduct
this audit, we selected 4 states for site visits (California, Louisiana, Tennessee, and
Texas) from 50 states and Washington, D.C., based on FHWA’s internal
assessment of the risks related to states’ LPA oversight programs and the total
ARRA funds authorized. In these four states, we visited 29 LPAs and reviewed
59 ARRA and Federal-aid highway projects.2 These projects received a total of
$2.5 billion in Federal, state, and local funds. We interviewed FHWA, state, and
local officials and contract consultants, and reviewed relevant project documents.
This performance audit was conducted from November 2009 through April 2011
in accordance with generally accepted government auditing standards and
included such tests as we considered necessary to detect fraud, waste, and abuse.
Exhibit A contains a detailed description of our scope and methodology.

RESULTS IN BRIEF
We found at least one instance of noncompliance with Federal requirements in
88 percent (52 of 59) of the LPA projects we reviewed in California, Louisiana,
Tennessee, and Texas. Most prevalent were shortcomings related to construction
management requirements. Although our review of transactions per project was
limited, we still identified $5 million in unsupported costs. Due to similarities in
the approach to LPA oversight in other states, the extent of noncompliance and
unsupported costs we found suggest the potential for broader vulnerabilities with
LPA-administered ARRA projects in other parts of the country. As a result, more
than 2 years after the enactment of ARRA, FHWA still faces a significant
challenge in ensuring LPAs are appropriately expending Federal funds.

Specifically:
      • In California, each of the 15 LPAs we reviewed failed to comply with at
        least one key Federal or state requirement.3 For example, field diary entries
        and other evidence, such as engineering calculations, were not recorded to
        substantiate the accuracy of periodic payments made to contractors.4 Our
        results are consistent with FHWA’s 2010 internal assessment, which

2
    In the four states, we selected projects with recent significant activity from 829 LPAs and 5,934 Federal-aid and
    ARRA LPA highway projects identified by FHWA.
3
    We reviewed 37 active and recently completed construction projects administered by 15 LPAs valued at $2.1 billion
    in Federal, state, and local funds.
4
    Engineering calculations include field measurements made by the resident engineering team to verify that specific
    contract items have been delivered and are eligible for progress payments. Progress payments are periodic payments
    made to a contractor for work satisfactorily performed as a project progresses, on a monthly basis. Payments are
    usually made to a contractor for work satisfactorily performed up to that point.
                                                                                 3


      concluded California did not have a comprehensive LPA oversight
      program.
   • In Texas, our results contradict FHWA’s 2010 internal assessment, which
     concluded that Texas had a comprehensive LPA oversight program. We
     found that 9 of 10 LPAs failed to comply with at least one key Federal
     requirement, such as not adequately documenting cost analyses that should
     serve as the basis for negotiating contract change orders.

   • In Tennessee and Louisiana, we found instances of incomplete cost
     analyses to support negotiated change orders on the relatively small number
     of projects we reviewed. For example, in Tennessee, we found that one
     LPA approved multiple change orders totaling over $100,000 with
     incomplete or no evidence of cost analyses.

As a result of noncompliance with Federal requirements, amounts paid with
Federal dollars in California, Louisiana, Tennessee, and Texas could be greater
than necessary. We identified $5 million in unsupported costs as a result of errors
in project change orders, progress payments, and other financial transactions.
Based on our results, additional unsupported project costs could be uncovered if
FHWA or states performed more thorough inspections and reviews of project
documentation.

While FHWA has taken action to address weaknesses in state LPA oversight
programs, its actions are having a limited impact. In 2007, FHWA enhanced its
programs for monitoring states’ oversight of LPA projects by evaluating the
adequacy of states’ LPA oversight programs and urging states to adopt better
management practices. For example, FHWA encouraged states to implement
comprehensive LPA program manuals that document project requirements, and to
perform detailed inspections of LPA projects to ensure they adhere to Federal
requirements. However, our work in California, Louisiana, Tennessee, and Texas
showed weaknesses in FHWA’s oversight actions. Specifically:

    • FHWA Division Offices do not assess the adequacy of state LPA oversight
      programs fully and uniformly, limiting FHWA’s ability to make
      meaningful comparisons between states regarding their level of compliance
      with Federal requirements.

    • FHWA Headquarters does not accurately report the status of states’ LPA
      oversight programs because state assessments are not based on objective
      criteria and do not sufficiently focus on whether states administer federally
      funded projects in compliance with Federal requirements.
                                                                                                                4


      • FHWA Headquarters does not independently assess or enforce corrective
        action plans that are needed to improve states’ oversight of LPAs.

We are making a series of recommendations to improve the effectiveness of
FHWA’s LPA oversight.

BACKGROUND
The Safe, Accountable, Flexible, Efficient Transportation Equity Act: A Legacy
for Users (SAFETEA-LU),5 holds states responsible for overseeing LPAs’ (sub-
recipients of Federal funding) project delivery and accounting. Accordingly,
states’ oversight programs must ensure that LPAs are meeting all Federal
requirements during the design and construction of Federal-aid highway and
bridge projects. In 2006, FHWA completed an internal review of LPAs and
reported significant deficiencies in LPAs’ administration of Federal-aid projects,
including compliance with construction and project management requirements in
Titles 23 and 49 of the Code of Federal Regulations (C.F.R.).6 Based on the
results of its 2006 review, FHWA directed its Division Offices to assess whether
the states’ LPA oversight programs reliably resulted in LPA projects being
administered in accordance with Federal requirements.

FHWA also directed the Division Offices located in each state, Puerto Rico, and
the District of Columbia to work with their counterparts to develop a date-specific
action plan to bring LPA programs into compliance with Federal requirements.
After Division Offices informed FHWA Headquarters that this action was a
significant burden, FHWA gave the Division Offices the flexibility to determine
the appropriate level and method of review to assess whether a state had a
comprehensive LPA oversight program. However, FHWA still instructed
Division Offices to develop action plans to address deficiencies they identified.

To promote accountability in ARRA, FHWA established national review teams
(NRTs) to conduct independent assessments of states’ compliance with Federal
requirements. Using standard guides to conduct their reviews, the NRTs assess
state processes and compliance in six risk areas: LPAs; plans, specifications, and
estimates; contract administration; quality assurance; disadvantaged business
enterprises; and eligibility for payments. At the close of each review, NRTs
provide the Division Office with a report that summarizes the results, rates each


5   Pub. L. No. 109-59 (2005).
6
    The C.F.R. contains requirements for states and LPAs related to the management and construction of highway and
    bridge projects funded by the Federal Government. For example, 23 C.F.R. states that LPAs must ensure changes
    made to projects are reviewed and documented, an effective quality assurance program is in place, and projects
    comply with Federal laws. Additionally, 49 C.F.R. requires states and LPAs to ensure the use of disadvantaged
    business enterprises and to close out projects effectively.
                                                                                                       5


review area, and cites observations and recommendations. The summary report
forms the basis of a corrective action plan.

LPAS HAD A HIGH LEVEL OF NONCOMPLIANCE WITH
FEDERAL REQUIREMENTS
LPA projects we reviewed exhibited a high level of noncompliance with Federal
requirements, which has continued since ARRA’s implementation. We reviewed
145 of the most recent project payments and change orders for LPA project
activities covering basic Federal-aid and state requirements at 29 LPAs
administering 59 Federal highway projects in California, Louisiana, Tennessee,
and Texas. These projects received $2.5 billion in Federal, state, and local
funding, of which $394 million were ARRA funds. (See exhibit B for a list of the
LPAs and projects we reviewed.)

For the 59 LPA projects selected, we conducted compliance reviews in 12 key
project activities (detailed in exhibit C), and found a range of errors, with
7 activities having error rates at or above 39 percent. Most errors were related to
highway and bridge construction management.             For example, we found
compliance errors in 33 of the 42 projects (79 percent) we reviewed for change
orders and claims. Table 1 shows the number of projects we reviewed in each
activity, and the number and percent of errors we found.

Table 1: Results of 12 LPA Project Activities Reviewed
                                                                             Number of       Percent of
                                                      Number of
                                                                              Projects        Projects
Project Activities Reviewed                            Projects
                                                                             Reviewed      Reviewed with
                                                      Reviewed*
                                                                             with Errors       Errors
1. Change Orders and Claims                                  42                    33            79%
2. Project Bidding—Plans, Specifications,
   and Estimates/Contractor                                  30                   22            73%
   Selection/Unbalanced Bid Analysis
3. Utility Agreements/Reimbursements                         3                    2             67%
4. Consultant Selection and Billings                         24                   15            63%
5. Construction Pay Quantities and
                                                             45                   22            49%
   Progress Payments
6. Project Reporting and Tracking                            39                   17            44%
7. Quality Assurance Procedures                              44                   17            39%
8. Value Engineering                                         13                    3            23%
9. Construction Close-Out                                    17                    3            18%
10. Right-of-Way Acquisitions                                15                    1             7%
11. Force Account Justification                               1                    0             0%
12. In-Kind Local Matching of Funds                           1                    0             0%
*All project activities were not reviewed in the 59 LPA projects selected.
Source: OIG analysis.
                                                                                                                     6


In California, we reviewed 37 Federal highway projects, managed by 15 LPAs,
valued at $2.1 billion in Federal, state, and local funds.7 Each LPA had at least
one error in the project activities we reviewed. Our review results are consistent
with FHWA’s 2010 internal assessment, which concluded that California did not
have a comprehensive LPA oversight program, indicating the potential for
significant vulnerabilities remaining in California.        We further identified
$4 million in unsupported project costs in our selection of project transactions,
resulting from these errors. Specifically, we found that of the 15 California LPAs
we reviewed:

      • 8 LPAs could not provide sufficient engineering calculations for 12 projects
        or the required daily construction diary entry that would demonstrate that
        the LPA engineers measured the quantities for which periodic progress
        payments were made to contractors.

      • 11 LPAs did not adequately document their cost analysis of negotiated
        contract change orders or sufficiently validate the time and material paid to
        construction contractors on 19 projects. For example, in the City of
        Richmond, officials at the Transit Station project could not provide
        adequate field diaries to substantiate work hours, equipment, or materials
        relating to $190,000 in time and material contract change orders. Officials
        also could not provide evidence of a completed cost analysis required to
        support payments the City made to contractors for a $31,000 negotiated
        work order.

      • 4 LPAs could not demonstrate that they used competitive consultant
        selection procedures on 7 construction projects. Additionally, 8 LPAs did
        not prepare an independent cost estimate on 10 construction projects
        required to establish fair and reasonable compensation prior to negotiating
        contracts with construction consultants.

      • 6 LPAs did not meet important aspects of quality assurance on
        11 construction projects we reviewed. A quality assurance program
        includes testing to ensure that all materials and workmanship meet contract
        specifications and requirements.

Texas had errors similar to those in California. In Texas, we reviewed 17 Federal
highway projects, managed by 10 LPAs, totaling $364 million. Of the 10 LPAs,
9 had at least one compliance error relating to the project activities we reviewed.
The errors are of particular concern because they contradict FHWA’s assertion in

7
    LPAs and projects were selected from 578 LPAs and 5,230 projects in California, 35 LPAs and 74 projects in
    Louisiana, 204 LPAs and 569 projects in Tennessee, and 12 LPAs and 61 projects in Texas. For the projects we
    selected, we reviewed 83 payments and change orders in California, 4 in Louisiana, 8 in Tennessee, and 50 in Texas.
                                                                                7


a 2010 internal assessment that Texas had a “comprehensive” LPA oversight
program. Texas projects had errors relating to contract progress payments,
contract change orders, and construction quality assurance requirements. We
identified almost $1 million in unsupported costs on the Texas LPA projects we
selected, which resulted from the errors. Specifically, of the 10 Texas LPAs we
reviewed:

   • 7 LPAs could not demonstrate they performed sufficient engineering
     calculations to support whether the resident engineers had appropriately
     measured the quantity paid in progress payments on 10 construction
     projects. For example, in the City of El Paso, Texas, we selected two
     payments each from the Central Business District III and the Magoffin
     Street Improvement projects totaling $244,251. The City’s resident
     inspectors could not provide quality calculations, field diaries, or other
     documents to support progress payments made to contractors.

   • 7 LPAs did not adequately document their cost analysis of negotiated
     contract change orders or sufficiently validate the time and material paid to
     construction contractors on 11 construction projects. For example, we
     found that the City of El Paso did not prepare or document a cost analysis
     on any of the four approved change orders we reviewed.

   •   5 LPAs did not meet important aspects of quality assurance testing
       requirements on six construction projects. For example, City of El Paso
       officials could not provide documentation to show that they performed
       material quality testing on either the Central Business District III or the
       Magoffin projects.

Finally, our review of a small number of LPAs (4 LPAs) in Tennessee and
Louisiana found instances of noncompliance with Federal requirements similar to
those in California and Texas. In Tennessee, we found that the City of
Murfreesboro approved seven change orders totaling over $100,000 with
incomplete or no evidence of a cost analysis to support negotiated change order
prices. Additionally, on Louisiana’s Fleur de Lis Drive Improvement Project, the
City of New Orleans incorrectly invoiced FHWA for $197,000 in change order
work that was performed for another Federal agency. In this case, Louisiana
allowed New Orleans to bill FHWA, instead of the Federal Emergency
Management Agency, which was responsible for delaying the project. After our
review, the FHWA Louisiana Division Office rescinded the Federal
reimbursement.

The errors in project change orders, progress payments, and other financial
transactions we selected resulted in $5 million in unsupported LPA project costs.
                                                                                8


Based on our test results, additional unsupported project costs could be uncovered
if FHWA or states performed more thorough inspections and reviewed
documentation to support project costs billed to FHWA. We did not project our
results to LPA projects in all states, because this was not a statistical sample.

FHWA’S ACTIONS ARE HAVING A LIMITED IMPACT ON
IMPROVING THE EFFECTIVNESS OF STATE LPA OVERSIGHT
PROGRAMS
While FHWA has taken actions to address weaknesses in state LPA oversight
programs, its actions are having a limited impact. To date, FHWA has appointed a
Headquarters LPA Coordinator, evaluated the adequacy of states’ LPA oversight
programs, and advised states to develop and disseminate LPA manuals that detail
procedures for administering projects in compliance with Federal requirements. In
addition, FHWA’s NRTs conducted LPA compliance reviews for ARRA projects
in some states. However, our work in California, Louisiana, Tennessee, and Texas
showed weaknesses in FHWA’s oversight efforts. Specifically, FHWA Division
Offices do not assess the adequacy of state LPA oversight programs fully and
uniformly; FHWA Headquarters does not accurately report the level of states’
compliance with Federal LPA requirements; and FHWA Headquarters does not
independently assess the severity or validity of LPA deficiencies identified by
Division Offices or enforce corrective actions needed to improve states’ oversight
of LPAs.

FHWA Division Offices Do Not Assess the Adequacy of State LPA
Oversight Programs Fully and Uniformly

Since 2007, FHWA has attempted to formally assess the effectiveness of state
LPA oversight programs by directing Division Offices to determine whether state
departments of transportation were ensuring that LPAs properly administer
federally funded projects. Initially, FHWA Headquarters provided Division
Offices specific criteria to conduct the LPA reviews, but shortly thereafter, gave
Division Offices the flexibility to choose the appropriate level and method of
review to make this determination. Because Division Offices have inconsistent
assessment criteria, FHWA cannot make meaningful comparisons between states
regarding their levels of compliance with Federal requirements. Comparisons
would allow FHWA to focus attention on improving high-risk states and identify
emerging risks across the Nation. Accordingly, FHWA has no assurance that
Division Office reviews consistently assess all LPA project management activities
that the states must oversee to ensure compliance with Federal requirements.

Our four-state review found that FHWA encourages states to perform field
inspections of LPA projects, but what FHWA considers an acceptable inspection
                                                                                                             9


varies by Division Office. In some instances, states perform field inspections
using a simple inspection checklist that only identifies that an activity was
inspected. This process does not provide details on the specific procedures the
inspectors reviewed or the methodology used to perform the inspection. For
example, our work on five federally funded highway projects in Tennessee
showed that inspection checklists did not demonstrate that state engineers assessed
whether project change orders and payments were based on a well-documented
cost analysis. In contrast, for ARRA projects, California recently implemented a
comprehensive field inspection process that involves documenting the specific
procedures reviewed by inspectors. This will allow FHWA to assess LPA
compliance with Federal requirements fully and uniformly, and ensure
compliance.

In addition, FHWA has not ensured that all states have comprehensive and
consistent processes in place to promptly resolve deficiencies on federally funded
highway and bridge projects when LPA inspections identify them. For example,
while California has implemented a comprehensive field inspection process for
ARRA projects, it does not have an effective follow-up process for confirming
that LPAs took appropriate actions to resolve project deficiencies identified.

FHWA Headquarters Does Not Accurately Report the Status of States’
LPA Oversight Programs

FHWA’s annual reports on the status of LPA oversight in individual states were
not based on objective criteria and did not focus on whether states administered
federally funded projects in compliance with Federal requirements. Rather, the
reports presented Division Offices’ subjective assessments on how well state
programs were generally working in each respective state. These assessments did
not routinely include a sample of LPA projects to validate compliance with
Federal requirements. Such independent testing could determine whether states
are consistently enforcing Federal requirements.

In preparing the annual reports, the Headquarters LPA Coordinator8 asks Division
Offices to respond to a survey questionnaire, which contains open-ended questions
regarding the status of each state’s LPA oversight program. The LPA Coordinator
then judgmentally interprets the survey response narratives and produces a report
on the national status of all state LPA oversight programs and any program
weaknesses and corrective actions the Division Offices identified. We found the
FHWA survey was based on a short series of open-ended questions rather than an
assessment of LPA compliance with Federal requirements. Survey questions
mainly based on Federal requirements would provide the LPA Coordinator with

8
    In 2007, FHWA established a Headquarters LPA Coordinator position to assist in setting FHWA’s LPA oversight
    policy and coordinate each Division Office’s assessment of state LPA oversight programs.
                                                                                 10


objective criteria to evaluate state programs. Accordingly, the reports do not
contain meaningful information that would enable FHWA Headquarters to
measure or understand existing oversight vulnerabilities, or clearly identify
corrective actions that each state needs to accomplish.

FHWA’s 2010 internal assessment of Texas’ LPA program demonstrates the
shortcomings of FHWA’s current approach to characterizing state LPA oversight.
This assessment showed that Texas had a “comprehensive” LPA oversight
program, while California did not. However, we found similar high levels of
noncompliance with basic Federal construction management requirements at LPAs
in California and Texas. Based on our review, FHWA’s California and Texas
Division Offices used different approaches to reach their conclusions, but the
FHWA Headquarters LPA Coordinator accepted the Division Offices’
assessments without confirming their validity.

FHWA Headquarters Does Not Independently Assess or Enforce
Corrective Action Plans Needed To Improve States’ Oversight of
LPAs

Since 2007, FHWA has required Division Offices to develop action plans to
address LPA-related deficiencies identified in their state LPA program
assessments, including specific tasks to resolve deficiencies and timelines for
completion. However, FHWA Headquarters only conducts a cursory review of
the action plans and does not evaluate whether planned actions were adequate and
timely to address the deficiencies noted. Therefore, the resolutions of deficiencies
are likely protracted. For example, in 2009, the California Division Office
determined that it would take California 3 to 5 years to establish a
“comprehensive” LPA oversight program. As a result, California’s LPA program
deficiencies could impact Federal funding well after most ARRA funds are
expended.

Without Headquarters’ independent assessment or enforcement activities, it is not
clear whether critical actions have been completed. After deficiencies are
identified in an action plan, the Division Office becomes primarily responsible for
monitoring and resolving them. FHWA guidance suggests, but does not require,
Divisions to provide Headquarters with quarterly updates of the status of their
action plans. When quarterly updates are submitted, Headquarters provides little
follow through. As a result, subsequent reports on actions may be incomplete,
outdated, or lacking specificity. For example, California’s quarterly update to its
fiscal year 2009 plan indicated that actions were complete, while a description of
the reported actions indicated only partial completion. A Texas quarterly update
stated that actions were completed, but then did not describe how the actions were
accomplished. We reported a similar concern in our January 2011 report on
FHWA’s NRT efforts to identify and address corrective actions on ARRA
                                                                                                      11


highway projects.9 We reported that FHWA Headquarters has not done enough to
monitor Division Offices’ efforts to correct the oversight deficiencies the NRTs
identified during their state reviews.

Targeted assistance from FHWA Headquarters could improve the timeliness of
Division efforts to improve LPA oversight. Further, Division Offices in states
with acute LPA oversight deficiencies may not receive sufficient assistance and
direction from FHWA Headquarters to ensure that the corrective actions are
appropriate and will be completed in a timely manner to improve management of
projects funded with Federal dollars.

CONCLUSION
ARRA greatly increased the number of federally funded highway and bridge
projects that LPAs plan to construct across the country. To protect the billions in
ARRA investments in these projects, FHWA must ensure that all states have
effective LPA oversight programs. While FHWA has made some progress in
improving state programs, it must take more action to ensure that states provide
effective oversight and that LPA-administered ARRA projects meet all Federal
requirements. Further, continued noncompliance with Federal requirements could
result in improper payment of limited Federal dollars at a time when infrastructure
needs are increasing faster than funding resources.

RECOMMENDATIONS
To strengthen oversight of LPA projects, we recommend that FHWA:
1. Implement a policy establishing uniform procedures and criteria for Division
   Offices to use when assessing the ability of states to ensure LPAs meet Federal
   requirements. The policy should also require FHWA Headquarters to validate
   the accuracy of Division Office assessments.

2. Develop a Headquarters process to assess the effectiveness of Division and
   state LPA corrective action plans to ensure deficiencies are promptly resolved.
   The process should specify the planned actions, milestones, level of
   government responsible for implementation, and ensure actions are completed
   as planned and on schedule.

3. Develop a Division Office-based plan that will increase state oversight in the
   seven project activities in which we identified a high level of noncompliance
   with Federal requirements (change orders and claims, project bidding, utility

9
    OIG Report Number MH-2011-027, “Actions Needed to Strengthen Federal Highway Administration’s National
    Review Teams,” January 6, 2011. OIG reports are available on our website: www.oig.dot.gov.
                                                                                12


      agreements and reimbursements, consultant selections and billings,
      construction pay quantities and progress payments, project reporting and
      tracking, and quality assurance procedures).

4. Assess the project transactions related to the $5 million in unsupported project
   costs we identified in California and Texas and review similar transactions
   within these projects for unsupported costs. The assessment would include
   developing an action plan to collect all unsupported costs or identify FHWA’s
   rationale for acceptance of these costs.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided FHWA a draft of this report for review and comment on April 8,
2011, and received its formal written comments on June 9, 2011. FHWA’s
complete response is included as an appendix to this report. FHWA fully
concurred with our recommendations and provided implementation dates. We
consider all of these recommendations resolved pending completion of the planned
actions.

ACTIONS REQUIRED
Subject to the follow-up provisions in Department of Transportation
Order 8000.1C, we request that within 30 days of this report FHWA provide us
with information to demonstrate its completion of the planned actions.

We appreciate the courtesies and cooperation of FHWA representatives during this
audit. If you have any questions concerning this report, please call me at
(202) 366-5630 or David Pouliott, Program Director, at (202) 366-1844.

                                        #

cc:      FHWA Director, Office of Program Management
         FHWA California Division Administrator
         FHWA Louisiana Division Administrator
         FHWA Tennessee Division Administrator
         FHWA Texas Division Administrator
                                                                                                13




EXHIBIT A. OBJECTIVE, SCOPE, AND METHODOLOGY
We conducted this audit from November 2009 through April 2011 in accordance
with generally accepted government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. Our objective was to
determine whether FHWA has taken actions to reduce risks identified with locally
administered highway projects. Specifically, we assessed (1) the extent of LPA
compliance with Federal requirements and (2) the effectiveness of FHWA’s
actions in ensuring that states have adequate LPA oversight programs.

To assess the extent of LPA compliance with Federal requirements, we visited
29 LPAs and reviewed 59 projects in California, Louisiana, Tennessee, and Texas
and reviewed 54 recent progress billings, 88 recent change orders, and 3 other
payment actions. These states were selected based on FHWA’s ranking of each
state’s LPA oversight program comprehensiveness, Federal-aid apportioned in
fiscal year 2009, and the total dollar amount of highway funds that ARRA
provided to each state. We selected one state for review in each of FHWA’s
ranking categories: comprehensive, borderline comprehensive, borderline not
comprehensive, and not comprehensive. Figure 1 shows FHWA’s ranking of the
comprehensiveness of state LPA oversight programs for each category.

  Figure 1. FHWA Headquarters’ FY 2008 Assessment of State
                  LPA Oversight Programs




                             Green - Comprehensive
                             Light Green - Borderline Comprehensive
                             Pink- Borderline Not Comprehensive
                             Red - Not Comprehensive

      Source: FHWA “Local Public Agency Federal-aid Project Oversight & Stewardship - FY 2008 Status
      Report,” September 2009.

Exhibit A. Objective, Scope, and Methodology
                                                                                14


We selected projects based on the degree of recent project activity and location,
from project lists provided by FHWA Division Offices in California, Louisiana,
Tennessee, and Texas. These lists, totaling 5,934 projects and 829 LPA sponsors,
included LPAs with ongoing ARRA work and LPAs slated to receive ARRA
funding. In most instances, the data were based on state project records, because
FHWA’s databases do not differentiate between state and LPA-administered
projects. At each LPA, we reviewed project construction activities to assess LPA
compliance with Federal regulations. The 12 project activities we selected are
representative of basic management oversight on a Federal-aid highway or bridge
project and are required under 23 C.F.R. and 49 C.F.R. Additionally, we assessed
state requirements that supplemented Federal requirements.

Because many LPA-administered ARRA projects were not in active construction,
we reviewed one or more ongoing or recently completed federally funded highway
projects to determine how the LPA sponsor was administering Federal highway
projects. To determine whether LPA project activities complied with Federal
requirements, we selected transactions from a project's most recent payments or
change orders and reviewed the supporting documentation. For example, we
reviewed the construction payment activity by reviewing up to five line items in a
claim for reimbursement (progress billing) and determined whether field records
consisting of the resident inspector’s calculation sheets and daily construction
diaries supported each line item. We reviewed these records further to determine
whether calculations or diary postings were used to support the quantities claimed
as delivered or installed and verified the accuracy and the completeness of the
records with local officials.

To assess the effectiveness of FHWA actions, we interviewed FHWA’s Division
Office officials in California, Louisiana, Tennessee, and Texas; the FHWA
Headquarters LPA Coordinator; FHWA Headquarters officials in the Office of
Professional and Corporate Development and Office of Program Administration;
and FHWA’s NRT staff. We examined policies and memoranda detailing FHWA
Division Offices’ LPA oversight responsibilities.

Additionally, we examined FHWA’s “Local Public Agency Federal-aid Project
Oversight and Program Stewardship Status Reports” for fiscal years 2007, 2008,
and 2009, compiled by the FHWA LPA Coordinator, which reported on each
Division Office’s yearly assessment of the state LPA oversight program. Our
examination included identification of the process and procedures for compiling
and completing the reports; interviewing Division Office staff who developed the
state assessments and determining how the state assessments were made;
reviewing Division Office corrective action plans; and interviewing state and local
officials to assess the states’ LPA oversight role and their involvement and
understanding of FHWA’s assessment of their state.

Exhibit A. Objective, Scope, and Methodology
                                                                                       15




EXHIBIT B. LPAS AND PROJECTS REVIEWED BY THE OIG

 Local Public Agency         Project Reviewed             FHWA          Unsupported
 Reviewed                                                 Funding       Costs Foundb
                                                          Sourcea
 City of Los Angeles, CA     Valley Boulevard             Federal-aid       Yes
                             1st St. Viaduct              Federal-aid       No
                             Citywide Resurfacing         Federal-aid       No
 City of Oxnard, CA          5th Street parking lot       Federal-aid       Yes
                             US 101 Rice Avenue           ARRA              No
 County of Los Angeles, CA    I-5/Hasley Canyon Road      Federal-aid       No
 Port of Long Beach, CA      Ocean Boulevard              Federal-aid       No
                             Gerald Desmond Bridge        Federal-aid       No
 County of Shasta, CA        Airport Road Bridge          Federal-aid       Yes
                             Blue Jay Lane                Federal-aid       No
                             Lone Tree Road               Federal-aid       Yes
 City of Richmond, CA        Transit Station              Federal-aid       Yes
                             Filbert Street               Federal-aid       Yes
                             Greenway Path                Federal-aid       Yes
 City of San Bruno, CA       SR82                         Federal-aid       Yes
                             San Bruno City Park Way      ARRA              No
 City of Redding, CA         Cypress Street Bridge        Federal-aid       Yes
                             Bonnyview Road               Federal-aid       No
 County of Riverside, CA     River Road                   Federal-aid       Yes
                             Cantu-Galliano Road          Federal-aid       Yes
 San Bernardino Associated   I-215                        ARRA              Yes
 Governments, CA             I-10 Ford Street             Federal-aid       Yes
 City of Modesto, CA         9th St. Bridge               Federal-aid       No
                             9th St. at two locations     Federal-aid       Yes
                             Sylvan Avenue                Federal-aid       Yes
 City of San Jose, CA        Stevens Creek Intelligent
                                                          Federal-aid       No
                             Transportation System
                             Street Resurfacing/Round 2                     Yes
                                                          Federal-aid
                             Overlay
                             Street Resurfacing/Round 3                     Yes
                                                          Federal-aid
                             Overlay
                             Various Roads/Foxworthy      ARRA              Yes
 City of Glendale, CA        SR134 Bridge                 Federal-aid       Yes
                             Glenoaks Boulevard           Federal-aid       Yes
                             Pacific and Allen Avenues    ARRA              No

Exhibit B. LPAs and Projects Reviewed by the OIG
                                                                                                                    16


    Local Public Agency                  Project Reviewed                     FHWA              Unsupported
    Reviewed                                                                  Funding           Costs Foundb
                                                                              Sourcea
                                         Controller Conversion                ARRA                     No
    City of Murrieta, CA                 Ivy St. Bridge                       Federal-aid              No
                                         Clinton-Keith Bridge                 ARRA                     No
    City of Long Beach, CA               Carson Street                        Federal-aid              No
                                         Spring Street                        ARRA                     No
    City of Austin, TX                   Cesar Chavez Street                  Federal-aid              Yes
                                         E. 7th Street                        Federal-aid              No
    Central Texas Regional
                                         183A Turnpike                        Federal-aid              No
    Mobility Authority, TX
    City of Hutto, Texas                 Cottonwood Trail Phase II            ARRA                     Yes
    City of Galveston, TX                Traffic Signal Repairs               Federal-aid              No
    City of Houston, TX                  Brittmoore Road                      Federal-aid              Yes
                                         Whiteheather Storm Sewer             Federal-aid              Yes
    Corpus Christi Port                  Joe Fulton International
                                                                              Federal-aid              No
    Authority, TX                        Trade Corridor Phase I
                                         Joe Fulton International
                                                                              ARRA                     No
                                         Trade Corridor Phase II
    City of El Paso, TX                  Central Business District III        Federal-aid              Yes
                                         Magoffin Avenue                      Federal-aid              Yes
    City of El Paso -
                                         West Side Transit Terminal           Federal-aid              Yes
    Sun Metro, TX
    Alamo Regional Mobility
                                         US 281 Super Street                  ARRA                     Yes
    Authority, TX
    City of San Antonio, TX              Jones Maltsberger Road               ARRA                     Yes
                                         Callaghan Road                       Federal-aid              Yes
                                         Woodlawn Avenue                      Federal-aid              Yes
                                         Clark Avenue                         Federal-aid              Yes
    City of Pineville, LA                Susek Drive                          ARRA                     No
    City of New Orleans, LA              Fleur de Lis Drive                   Federal-aid              Yes
                                         Robert E Lee Boulevard               Federal-aid              No
    City of Murfreesboro, TN             Gateway Trail                        Federal-aid              Yes
    Tennessee Department of
    Environment and                      Fiery Gizzard Trail                  Federal-aid              No
    Conservation, TN
a
    “Federal-aid” denotes that the LPA project reviewed was using Federal-aid highway and bridge program funds and
    “ARRA” denotes that the LPA project reviewed was using ARRA funds.
b
    Unsupported costs were found in our sample of change orders, progress payments, or other financial transactions in
    33 projects.




Exhibit B. LPAs and Projects Reviewed by the OIG
EXHIBIT C. DESCRIPTION OF PROJECT ACTIVITIES REVIEWED BY THE OIG
Project Activity    Code of Federal        Description of Project Activity Reviewed
                    Regulation
1. Change Orders    23 C.F.R. § 635.109,   23 C.F.R. § 635 provides guidance on changed conditions and claims.
and Claims          .120, and .124;        State procedures require the use of change orders to document changed
                    § 140.501-.505         conditions made to a project’s original plan and specifications.a 23 C.F.R.
                                           § 635.120 requires the agency’sb resident engineer to conduct and
                                           document a cost analysis of any proposed negotiated change order prior to
                                           award. In cases where change in price cannot be reasonably negotiated,
                                           the work is conducted on a force account basis, where field diaries are
                                           used to support the contractor billings. A claim arises when changes are
                                           not approved by the agency. 23 C.F.R. § 635.124 requires the claim to be
                                           resolved through a formal administrative or legal process and
                                           administrative settlement costs are defined in 23 C.F.R. § 140.501, .503
                                           and .505.
2. Project Bidding 23 C.F.R. § 635.104,    23 C.F.R. § 635.104 and .112 provide that contracts for project
                   .112-.114; § 630.205    construction are generally advertised formally and then competitively
                                           awarded. However, before advertising, 23 C.F.R. § 630.205, requires the
                                           agency’s engineer to prepare project’s plans, specifications, and estimates.
                                           Consistent with C.F.R. § 635.113, bids are publically opened and the
                                           agency shall prepare a tabulation of bids. Consistent with 23 C.F.R.
                                           § 635.114, before awarding a contract, the agency systematically reviews
                                           the contractor’s proposal to determine, on an item-by-item basis, if the
                                           items bid are mathematically or materially balanced as a whole and are
                                           reasonable based on the agency’s cost estimate.
3. Utility/Railroad 23 C.F.R. § 645.113;   23 C.F.R. § 645.113 and § 646.216 states that when a project must
Agreements and      § 646.216              relocate a utility or railroad during construction, a formal agreement with
Reimbursements                             the utility or railroad should be prepared to identify the work scope and




                                                                                                                          17
                                           methods needed for the relocation. Per 23 C.F.R. § 645.113 and
Exhibit C. Descript ion of Project Acti vities Review ed by t he OIG
Project Activity    Code of Federal         Description of Project Activity Reviewed
                    Regulation
                                            § 646.216, the lump-sum amount needed for the relocation is contained in
                                            the project’s contract or force account agreement.c            Additionally,
                                            consistent with Federal and state requirements, the agency must review the
                                            proposed lump-sum price before any agreement is made. When using
                                            force account agreements the agency must review invoices and project
                                            field records to ensure that amounts billed are actual and eligible costs to
                                            the project.
4. Consultant       23 C.F.R. § 172.5 and   23 C.F.R. § 172.5 provides that when selecting engineering and design
Selection and       172.7                   consulting services, LPAs must use a competitive selection process that
Billings                                    evaluates the technical qualifications of all candidates. Before negotiating
                                            the contract price, some states require the LPA to independently estimate
                                            the cost of planned scope of work. After award, consultant billings
                                            generally identify labor categories, hourly rates and job categories, other
                                            direct costs and indirect costs used to complete the consultant service
                                            deliverables; which should be reviewed by the LPA before approving the
                                            payments. In most cases, audits are performed of indirect cost rates
                                            charged by the consultant, as defined in 23 C.F.R. § 172.7.
5. Construction     23 C.F.R. § 635.122-    23 C.F.R. § 635.122 provides for participation in a contractor’s claim for
Pay Quantities      .123;                   reimbursement of delivered materials during project construction.
and Progress        49 C.F.R. § 18          23 C.F.R. § 635.123 requires that agencies have procedures in effect that
Payments                                    provide adequate assurances of the quantities of completed work are
                                            determined accurately.       State construction procedures require the
                                            contractor to identify specific contract line items that have been delivered
                                            to date. The agency is required to inspect and verify delivery. The main
                                            evidence to support the line item’s delivery in construction is the resident
                                            engineer’s daily field diaries and other evidence, such as engineering
                                            calculations. 49 C.F.R. § 18 specifies that the determination of pay
                                            quantity records and documents must be retained.




                                                                                                                           18
Exhibit C. Descript ion of Project Acti vities Review ed by t he OIG
Project Activity    Code of Federal         Description of Project Activity Reviewed
                    Regulation
6. Project          23 U.S.C. § 113;        State guidance requires the agency to conduct routine field inspections and
Reporting and       49 C.F.R. § 26.37 and   perform project management during construction.              This includes
Tracking            .55                     maintaining field diaries, organizing and retaining project records, and
                                            monitoring construction schedules. The agency must validate certified
                                            payroll for labor compliance as stated in 23 U.S.C. § 113 and state
                                            guidance. The agency must also conduct disadvantaged business
                                            enterprises compliance reviews to validate that minority firms performed a
                                            commercially useful function per 49 C.F.R. § 26.37 and 26.55.
7. Quality          23 C.F.R. § 637.205     23 C.F.R. § 637.205 requires the agency to have a process in place to
Assurance           and .207                evaluate the quality of construction workmanship and materials.
Procedures                                  According to 23 C.F.R. § 637.207 and state requirements, the evaluation
                                            includes pre-inspecting the manufacturer, performing acceptance testing,
                                            conducting independent assurance sampling and testing, and ensuring
                                            installed materials conform to specifications. Deficiencies can be
                                            identified through exception reports and must be resolved in a timely
                                            manner.d
8. Value            23 C.F.R. § 627         Value engineering requirements are codified in 23 C.F.R. § 627. An
Engineering                                 agency must conduct a systematic review that analyzes a project’s design,
                                            and develops recommendations to improve design and/or reduce costs.
                                            The agency should assess each recommendation and make appropriate
                                            engineering changes to design or processes.e
9. Construction     49 C.F.R. § 18.50       When the project is completed, 49 C.F.R. § 18.50 requires the agency to
Close-Out                                   complete a contract close-out of the award. According to state guidance,
                                            this includes an assessment of liquidated damages, a final inspection,
                                            formal acceptance of the contract, and a final invoice.
10. Right-of-Way    23 C.F.R. § 1.23; §     23 C.F.R. § 1.23 defines ROW to include all project property (land)
Acquisitions        710                     acquired and managed by the agency, which is acquired solely for placing
(ROW)                                       the roadway and supporting facilities. The agency must comply with




                                                                                                                          19
Exhibit C. Descript ion of Project Acti vities Review ed by t he OIG
    Project Activity               Code of Federal                       Description of Project Activity Reviewed
                                   Regulation
                                                                         Federal requirements in 23 C.F.R. § 710, and state ROW acquisition
                                                                         requirements--including using property appraisals, payments of just
                                                                         compensation to landowners, and relocation assistance.
    11. Force Account 23 C.F.R. § 635.204                                When construction work is completed by a public agency, instead of a
    Justification                                                        private contractor, 23 C.F.R. § 635.204 requires the agency to demonstrate
                                                                         that the planned force account is cost-effective. State guidance requires the
                                                                         use of force account to be justified through a “public interest finding”
                                                                         because the work was not open to competition.
    12. In-kind Local              49 C.F.R. § 18.24                     49 C.F.R. § 18.24 defines instances when an agency can use non-monetary
    Matching of                                                          matching contributions of in-kind services or donated property. These
    Funds                                                                matches replace the more traditional cash match that states and local
                                                                         agencies are required to provide for most Federal-aid projects.
a
    State procedures described in this exhibit represent the procedures and processes established by the states to implement the CFR requirements. This exhibit provides the
    procedure used in a sampled state that most clearly describes and best exemplifies state implementation of the CFR requirement.
b
    The “agency” refers to a state or local agency responsible for administering a Federal-aid highway or bridge construction project.
c
    Force account includes the labor, equipment, materials, and supplies directly incurred by a state transportation department, county, railroad, or public utility on a federally
    funded highway project.
d
    Some of the quality assurance regulatory requirements referenced pertain only to National Highway System projects.
e
    Some of the value engineering regulatory requirements referenced pertain only to National Highway System or Federal-aid System projects.




                                                                                                                                                                                      20
Exhibit C. Descript ion of Project Acti vities Review ed by t he OIG
                                                           21




EXHIBIT D. MAJOR CONTRIBUTORS TO THIS REPORT


  Name                                  Title

  David Pouliott                        Program Director

  Peter Babachicos                      Project Manager

  John Hannon                           Senior Analyst

  William Lovett                        Senior Auditor

  Paul McBride                          Senior Analyst

  Kristi-Jo Preston                     Analyst

  Daniel Ben-Zadok                      Analyst

  Petra Swartzlander                    Statistician

  Harriet E. Lambert                    Writer-Editor




Exhibit D. Major Contributor s to This Report
                                                                                                  22




APPENDIX. AGENCY COMMENTS


                                                      Memorandum

Subject:   INFORMATION: Federal Highway Administration                         Date:   June 8, 2011
           Response to Office of Inspector General (OIG) Draft Report on
           FHWA’s Oversight of Federal-aid and Recovery Act Projects
           Administered by Local Public Agencies (10U3001M000)

From:      Victor M. Mendez                                                    Reply to
           Administrator                                                       Attn. of:   HIF/HAIM-10

To:        Calvin L. Scovel III
           Inspector General (J-1)


           The Federal Highway Administration’s (FHWA) successful implementation of the
           American Recovery and Reinvestment Act of 2009 (Recovery Act) funded more than
           13,300 projects, improved more than 41,500 miles of road and more than 2,700 bridges to
           date, and it helped put tens of thousands of Americans back to work. Recognizing that
           the unprecedented scale, speed, and scope of the Recovery Act would magnify the risks
           inherent in providing effective stewardship for these funds, FHWA built upon its existing
           comprehensive risk management framework. Through mechanisms such as the FHWA
           National Review Team (NRT), multidisciplinary experts charged with conducting
           independent reviews of Recovery Act funded projects, the Agency provided consistent,
           national oversight of its administration of Recovery Act programs to help ensure Federal
           funds are used in accordance with statutory and regulatory requirements. Based on its
           previous work, FHWA recognized from the outset that Recovery Act projects
           administered by local public agencies (LPAs) presented a uniquely challenging set of
           risks.




Appendix. Agency Comments
                                                                                          23


    The FHWA’s Corporate Risk Assessment had previously identified subrecipients as one
    of the Agency’s top risk areas. This information was a critical component used to
    formulate the Agency’s Recovery Act Risk Plan, which further focused oversight on
    areas posing the highest risk, particularly LPAs. Using a multifaceted approach to risk
    management, including information from single audits, along with results from FHWA’s
    programmatic reviews and its Financial Integrity Review and Evaluation Program,
    FHWA continues to address inherent challenges with LPA oversight for all projects.
    These include variable quality and oversight by State departments of transportation
    (DOTs) due to resource constraints, weak internal controls, and a general lack of
    experience by LPAs in handling Federal requirements and Federal-aid highway projects
    in particular.

    The NRT’s findings confirmed FHWA’s expectations of the risks posed by States’
    oversight of LPA-administered highway projects. To date, the NRT has conducted 189
    site visits touching 1,279 Recovery Act projects, resulting in more than 1,588 total NRT
    recommendations for division offices’ appropriate action. Through priority action taken
    and vigilant monitoring, 72 percent of the NRT’s Recovery Act recommendations issued
    have already been fully addressed and closed. For its most significant findings, the NRT
    issues Recovery Act Advisories, highlighting the need for immediate management
    attention. The LPA oversight is addressed in these advisories, including one issued in
    September 2010, which identified recurring LPA issues and emphasized the need for
    FHWA division offices to ensure the State DOT’s preventive measures are effective.
    Specifically, the NRT highlighted a lack of assurance that State DOT’s oversight
    activities complied with the single audit requirements and that audit findings were
    tracked and resolved timely. The NRT advisory also underscored the need to ensure
    required single audits are completed and findings are addressed expeditiously. The
    FHWA recognized the need for priority action to address all single audit findings and
    have already closed 60 percent of OIG Recovery Act related single audit
    recommendations issued as of April.

    Issues associated with subrecipient reporting and oversight have been identified
    governmentwide and have been well documented through the single audit process. With
    oversight responsibilities of the Federal-aid highway program assumed by the States
    according to 23 United States Code (USC) §106, FHWA is utilizing the full scope of its
    authority to ensure that States’ oversight of LPA-administered projects focus on required
    accounting and audit controls at the local government level. The FHWA is fully
    committed to providing reasonable assurance that Federal funds are used effectively with
    adequate safeguards against waste, fraud and abuse.

    OIG Recommendations and FHWA Actions

    Recommendation 1: Implement a policy establishing uniform procedures and criteria
    for Division Offices to use when assessing the ability of States to ensure LPAs meet
    Code of Federal Regulations (CFR) requirements. The policy should also require FHWA
    Headquarters to validate the accuracy of Division Office assessments.



Appendix. Agency Comments
                                                                                           24


    Response: Concur. The FHWA will issue a new policy to establish uniform procedures
    and criteria for division offices to use when assessing the ability of the State DOTs to
    assure that Federal-aid requirements are met on LPA-administered projects. The new
    policy will include a sampling process for FHWA Headquarters to review assessments
    conducted at the division office level. Issuance of the new policy is targeted for
    completion by September 30, 2011, for use in the annual LPA assessment conducted in
    2012.

    Recommendation 2: Develop a Headquarters process to assess the effectiveness of
    division offices and State LPA corrective action plans to ensure deficiencies are promptly
    resolved. The process should specify the planned actions, milestones, level of
    government responsible for implementation, and ensure actions are completed as planned
    and on schedule.

    Response: Concur. As noted in the report, FHWA Headquarters annually monitors and
    reports on the progress of the division office and LPA action plans. The policy described
    in the response to Recommendation 1 will help formalize FHWA Headquarters’
    procedures to assess and monitor the effectiveness of LPA corrective action plans to
    ensure expedited resolution of deficiencies identified. Issuance of the new policy is
    targeted for completion by September 30, 2011 for use in the annual LPA assessment
    conducted in 2012.

    Recommendation 3: Develop a division office-based plan that will increase State
    oversight in the seven project activities in which we identified a high level of
    noncompliance with Federal requirements.

    Response: Concur. The FHWA implemented the recommended division office-level
    plans throughout the Agency. The FHWA Headquarters will issue a memorandum to the
    division offices emphasizing the importance of working with States to ensure that the
    areas noted as having high rates of noncompliance are given particular attention in the
    oversight of LPA-administered projects. We expect to issue the memorandum by August
    30, 2011. This will allow us to incorporate information obtained during implementation
    of Recommendation 4.

    Recommendation 4: Assess the project transactions related to the $5 million in
    unsupported project costs we identified in California and Texas and review similar
    transactions within these projects for unsupported costs. The assessment would include
    developing an action plan to collect all unsupported costs or identify FHWA's rationale
    for acceptance of these costs.

    Response: Concur. The FHWA will review the unsupported costs identified in the OIG
    audit and any confirmed unsupported costs will be recovered accordingly. We are
    currently reviewing OIG’s assessment of the project transactions. We will provide a
    report by August 15, 2011, that identifies unsupported costs that will be recovered and
    those costs that are deemed to be adequately supported.



Appendix. Agency Comments
                                                                                            25


    Recovery of costs will depend upon the standard that applies to the particular project.
    Not all Federal-aid projects are subject to the construction and contract administration
    provisions of Title 23 of the CFR. In particular, Title 23 of the USC provides that those
    projects not located on the National Highway System must be designed, constructed,
    operated, and maintained in accordance with State laws, regulations, directives, safety
    standards, design standards, and constructions standards. In conducting this review, we
    will assess compliance with the standards applicable to each project.

    Overall, FHWA invested Recovery Act funds in highway and bridge projects that not
    only generated tens of thousands of jobs, but also provided a sound investment in
    America’s transportation infrastructure. The FHWA anticipated the oversight risks
    involved with these investments, particularly with regard to LPAs, and implemented
    extraordinary controls in an effort to ensure these investments fully achieved their
    intended goals. The FHWA appreciates the efforts of the OIG to further strengthen its
    oversight of Recovery Act and Federal-aid projects administered by LPAs. If you have
    any questions or comments regarding this response, please contact David Nicol, Director
    of Program Administration, Office of Infrastructure, at
    202-366-5530.




Appendix. Agency Comments
